Audit Report 97-08
WORKING CAPITAL FUND
MANAGEMENT LETTER REPORT
FISCAL YEAR 1995
Audit Report 97-08, (1/97)
TABLE OF CONTENTS
OFFICE OF THE INSPECTOR GENERAL COMMENTARY AND SUMMARY
MANAGEMENT LETTER
UNDELIVERED ORDERS IMPROPERLY ACCRUED
OFFICIAL PERSONNEL FILES NEED TO BE MAINTAINED
APPENDIX I - AUDIT DIVISION ANALYSIS AND SUMMARY OF ACTIONS
NECESSARY TO CLOSE REPORT
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
The Department of Justice Working Capital Fund (WCF) is a revolving fund authorized to
finance, on a reimbursable basis, administrative services provided by the Justice
Management Division (JMD) to other components of the Department and to other federal
agencies. The WCF generates its revenue through collections from customers. Customer
billings are based on rates which are intended to fully recover the actual expenses. The
services provided are generally commercial functions, such as data processing,
publications, building services, financial operations, employee data, telecommunications,
property management, and space management.
The Office of the Inspector General (OIG) contracted with Brown & Company,
Certified Public Accountants to perform an audit of the WCF Annual Financial Statement for
the year ending September 30, 1995 (Report 96-18A). The audit was conducted in accordance
with generally accepted government auditing standards. The OIG performed an oversight role
in the audit process which included monitoring the progress of the audit, reviewing
supporting workpapers, coordinating the issuance of reports, following up on previously
issued findings and recommendations, and ensuring overall compliance with the Chief
Financial Officers Act of 1990.
Brown & Company was not contracted with to perform sufficient tests of the internal
control structure to enable them to express an opinion on the internal control structure
as a whole. Certain conditions were identified in the internal control structure and its
operations, and are being reported to management through this Management Letter Report.
Specifically the auditors noted weaknesses in the year-end closing procedures for accounts
payable and maintenance of personnel files of the WCF.
The issues identified in the Management Letter Report represent conditions in the
internal control structure, that in the auditors' judgment, are not considered to be
reportable conditions. Strengthening controls in these areas is considered to be important
and presents an opportunity to improve operating efficiency.
APPENDIX I
OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT
Recommendation Number:
Closed.
Resolved. This recommendation can be closed when the Personnel Staff provides a
copy of the updated procedures implemented to ensure the OPFs are properly maintained.
Resolved. This recommendation can be closed when the Personnel Staff provides a
copy of their completed written instructions for creating OPFs for new hires.
#####